11-

‘

©'

<*t

I

No,
■'

IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

NOV 1 9 2020
OFFICE OF THE CLERK

JASON LAMONT BROOKS

— PETITIONER

(Your Name)
vs.
SCOTT JORDAN, WARDEN LLCC
----------- —-------- ,
---- RESPONDENTS)
ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
JASON LAMONT BROOKS

(Your Name)
L*LiEiC.,:P.o.

box

6.

(Address)
LAGRANGE, KENTUCKY 40031

(City, State, Zip Code)
(502)222-0363
(Phone Number)

QUESTION(S) PRESENTED

1. Does the AEDPA time-bar apply to a "protected class of
citizen's" claim for relief?

2. Does the Eighth Amendment prohibit a "de jure"/"de
facto" LWOP sentence under Montgomery, Miller,
Grghgm when a state intentionally refuses to grant a
juvenile offender a "meaningful opportunity to obtain
release based on demonstrated maturity and
rehabilitation?"

Page 1 of 11

LIST OF PARTIES

§

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
MONTGOMERY V. LOUISIANA, 136 S.Ct. 718 (2016)
Roper v. Simmons, 543 U.S. 551
Graham v. Florida, 560 U.S. 48
Miller v. Alabama, 132 S.Ct. 2455
Virginia v. LeBlanc, 137 S.Ct 1726 (2017)
Phon v. Commonwealth, 545 .S.W3d 290 (Ky.2018)

TABLES OF CONTENTS
OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF CASE
REASONS FOR GRANTING THE WRIT,
CONCLUSION

INDEX TO APPENDICES
APPENDIX A BROOKS V. JORDAN, 2020 U.S.APP.LEXIS 18078; 20-5075
APPENDIX B 2019 U.S.DIST.LEXIS 217455; 5:18-CV-00196-TBR
APPENDIX C 2018 Ky.LEXIS 578; 2018-SC-000389-D
APPENDIX D 2018 Ky.App.Unpub.LEXIS 269; 2018 WL 20178011
APPENDIX E
APPENDIX F

BROOKS V. COMMONWEALTH UNDER 97CR00284-002;

TABLES OF AUTHORITIES CITED
CASES

PAGE NUMBER

Montgomery v. Louisiana, 136S.Ct. 718 (2016)

2

Roper v. Simmons, 543 U.S. 551

2

Graham v. Florida, 560 U.S. 48

2

Miller v. Alabama, 132 S.Ct. 2455

4

Yates v. Aiken, 108 S.Ct 534

5

Griffith v. Kentucky, 479 U.S. 314(1987)

6

Virginia v. LeBlanc, 137 S.Ct. 1726 (2017)

6

Ford v. Wainwright, 477 U.S. 399 (1986)

6

Dodd v. U.S., 545 U.S. 353, 358 (2005)

7

Mackey v. U.S., 401 U.S. 667 at 692

7

Atkins v. Virginia, 536 U.S. 304, 317 (2002)

7

Phon v. Commonwealth, 545 S.W.3d 290, 291 (Ky.2018)

9

Belcher v. Kentucky Parole Board, 917 S.W.2d 84 (Ky.App.1996)

9

Brooks v. Commonwealth, 2018 Ky.App.Unpub.LEXIS 269

10

U.S. v. Windsor, 570 U.S. 744 (2013)

11

STATUTES AND RULES
28U.S.C. §2244

2

Wyoming Statutes Annotated §6-10-301(c)(2013)

6

Kentucky Revised Statute 635.020(4)

9

Kentucky Revised Statute 507.020,

9

Kentucky Revised Statute 532.030(1)

9

Kentucky Revised Statute 640.030(2)

9

Kentucky Revised Statute 635.020(4)

9

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix —
v
the petition and is

to

[ ] reported at 2020 u s app.lexis 18078

; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at 2019 U.S.Dist.LEXIS 21755
; or,
[ ] has been designated for publication but is not yet reported; or,
[>d is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix ____ to the petition and is
[ ] reported at 2018 KYLEXI8 578

; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the KENTUCKY APPEALS
appears at Appendix ____ to the petition and is
[ ] reported at 2018 Ky.App.Unpub.LEXIS 269____________

; or,
[ ] has been designated for publication but is not yet reported; or,
IX3 is unpublished.
1.

court

to

JURISDICTION
[<r$ For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was jUNE 8, 2020
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: October 9, 2020
, and a copy of the
order denying rehearing appears at Appendix A
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix 2______

Decemberr 5, 2018

[ ] A timely petition for rehearing was thereafter denied on the following date:
~7 ~ 12.- 1 &_________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) in
(date) on
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

28 U.S.C. §2244
EIGHTH AMENDMENT OF U.S. CONSTITUTION
ARTICLE VI; SUPREMACY CLAUSE
Kentucky Revised Statute 635.020(4)
Kentucky Revised Statute 507.020
Kentucky Revised Statute 532.030(1)
Kentucky Revised Statute 640.030(2)
Kentucky Revised Statute 635.020(4)
Kentucky Revised Statute Chapter 439

STATEMENT OF CASE

Petitioner was juvenile when he entered into a guilty plea for the crime of
Murder in 1998. The term agreed to was a life sentence without the benefit of
parole for a minimum of twelve (12). After twelve (12) years, Brooks met with the
parole Board in 2009, which denied him parole for another twelve (12) years
based solely on “severity of crime.” Additionally, the board had foreknowledge
Appellant was not the actual shooter. After the announcement of Montgomery v.
Louisiana, 136 S.Ct 718 (2016), Appellant challenged his conviction based upon
the state of Kentucky’s failure to adhere to the Supremacy Clause in providing to a
specific “protected class of citizen” (juvenile offender serving a de facto LWOP
sentence) the meaningful opportunity to demonstrate rehabilitation and maturity
due to state statutory law.
Petitioner bases his challenge upon the fact that this Court ignored the
“evolving standard of decency” and his status as a “protective class of citizen”
when erroneously applying the §2244 statute of limitation bar against him, and its
refusal to address the exceptional importance of whether a state violates the
Supremacy Clause by its refusal to comply with SCOTUS mandate. Additionally,
Petitioner challenges whether such a failure to comply with the newly announced
law allows the federal courts to maintain jurisdiction over the subject matter.
Brooks respectfully petitions for rehearing in light of the conflict with his status as
Page 2 of 11

\

a “protective class of citizen” versus the AEDPA statute of limitations and the
challenged state’s inactions.

Page 3 of 11

REASONS FOR GRANTING PETITION
“JUST FRUITS.” The ideology propagated by state and federal legislators across the
board adopted harsher sentencing policies and practices which made the United States of
America the most incarcerated nation in the world. It was this Court that empowered the habeas
courts to invoke the Eighth. Amendment “evolving standard of decency” jurisprudence to upset
punishments that were unconstitutional when imposed but “cruel and unusual” in a newly
enlightened society. This Court recognized a child lacks maturity and has an under developed
sense of responsibility leads to recklessness, impulsivity, and heedless risk-taking. They are
more vulnerable to negative influences and outside peer pressure from peers and family. Their
character is not well formed as an adult’s with traits less fixed and actions less likely to be
evidence of irretrievable depravity. See Rover, Graham, and Miller. The evolution of this
decency has been extended to juveniles to designate them as a “special class.” Mr. Brooks only
challenges Kentucky’s obstreperousness in using this standard of decency when it comes to its
juveniles.

Page 4 of 11

ARGUMENT
1. Does the AEDPA time-bar apply to a “protected class of citizen’s” claim for
relief when the state fails to adhere to the Supremacy Clause of the U.S.
Constitution?
Under the Supremacy Clause of the Constitution, state collateral review
courts have no greater power than federal habeas courts to mandate that a prisoner
continue to suffer punishment barred by the Constitution. If a state collateral
proceeding is open to a claim controlled by federal law, the state court “has a duty
to grant the relief that federal law requires.” Yates, 484 U.S., at 218, 108 S. Ct.
534, 98 L. Ed. 2d 546. If a state collateral review court is open to a claim
controlled by federal law, the state has a duty to grant relief that federal law
requires. Yates, 484 US at 218. Where state collateral review proceedings permit
prisoners to challenge lawfulness of their confinement, state cannot refuse to [732]
give retroactive effect to a substantive constitutional right that determines the
outcome of that challenge. Montgomery v. Lousiana, 136 S.Ct. 718 (2016); Id. at
735-36.
Hence, Miller, Roper, Graham, and Montgomery all dubbed juvenile
offenders as a “protected class of citizen.” Once Miller gave the states
discretionary power on administering its newly announced constitutional law, then
made retroactive in Montgomery, this Court automatically retains jurisdiction over
the subject matter to ensure a state’s compliance of which the §2244 statute of
Page 5 of 11

limitations cannot apply. See Montgomery, Id. at 727-28 (quoting Griffith v.
Kentucky. 479 U.S. 314 (1987) when a constitution establishes a rule and requires
that the rule have retroactive application, then a state court’s refusal to give the rule
retroactive effect is reviewable by this Court; see also Virginia v. LeBlanc. 137
S.Ct. 1726 (2017)). In Montgomery it cited:
. .court is careful to limit the scope of any attendant procedural requirement to avoid intruding more than necessary
upon the state’s sovereign administration of their criminal justice systems. See Ford v. Wainwright, 477 US
399(1986) (We leave to the State[s] the task of developing appropriate ways to enforce the constitutional restriction
upon [their] execution of sentences).
Giving Miller retroactive effect, moreover, does not require States to relitigate sentences, let alone
convictions. f***351 in every case where a juvenile offender received mandatory life without parole. A State may
remedy a Miller violation by permitting juvenile homicide offenders to be considered for parole, rather than by
resentencing them. See, e.g., Wvo. Stat. Ann. §6-10-301(c) (2013) (juvenile homicide offenders eligible for parole
after 25 years). Allowing those offenders to be considered for parole ensures that juveniles whose crimes reflected
only transient immaturity—and who have since matured—will not be forced to serve a disproportionate sentence in
violation of the Eighth Amendment. Extending parole eligibility to juvenile offenders does not impose an onerous
burden on the States, nor does it disturb the finality of state convictions. Those prisoners who have shown an
inability to reform will continue to serve life sentences. The opportunity for release will be afforded to those who
demonstrate the truth of Miller’s central intuition—that children who commit even heinous crimes are capable of
change.”

Miller left open a vessel by which the states can choose to grant relief. When
Kentucky refused to implement any policy change, the either/or scenario of
resentencing to reconsideration of parole hearings with Miller guidelines leaves
open any challenge which is held retroactive upon Montgomery. Petitioner request
this Court review the question of exceptional importance regarding whether §2244
applies to a “protected class/citizen” to pursue the underlying right/privilege
challenged deeming that the case that this Court and the Respondents rely

Page 6 of 11

upon does not address a specific class’ plight. See Dodd v. U.S., 545 U.S. 353,
358 (2005).
As a protected class of citizen, there are instances in which a substantive
change in the law must be attended by a procedure that enables a prisoner to show
that he falls within the category of persons whom the law may no longer punish.
See Mackey, 401 U.S., at 692, n. 7, 91 S. Ct. 1160, 28 L. Ed. 2d 404 (opinion
of r**6211 Harlan, J.) (“Some rules may have both procedural ahd substantive
ramifications, as I have used those terms here”). For example, when an element of
a criminal offense is deemed unconstitutional, a prisoner convicted under that
offense receives a new trial where the government must prove the prisoner’s
conduct still fits within the modified definition of the crime. In a similar vein,
when the Constitution prohibits a particular form of punishment for a class of
persons, an affected prisoner receives a procedure through which he can show
that r***321 he belongs to the protected class. See, e.g., Atkins v. Virginia, 536
U.S. 304, 317, 122 S. Ct. 2242, 153 L. Ed. 2d 335 (2002) (requiring a procedure to
determine whether a particular individual with an intellectual disability “fallfs]
within the range of [intellectually disabled] offenders about whom there is a
national consensus” that execution is impermissible). Those procedural
requirements do not, of course, transform substantive rules into procedural ones.
The procedure Miller prescribes is no different. A hearing where “youth and its
Page 7 of 11

attendant characteristics” are considered as sentencing factors is necessary to
separate those juveniles who may be sentenced to life without parole from those
who may not. 567 U.S., at

. 132 S. Ct. 2455. 183 L. Ed. 2d 407 (slip on., at 1).

The hearing does not replace but rather gives effect to Miller's substantive holding
that life without parole is an excessive sentence for children whose crimes reflect
transient immaturity. Id at Montgomery, 734-735.
In essence, if this ruling is allowed to stand, it propagates the extinguishment
of rights provided to a “protected class” of citizen. It proposes that a
constitutionally provided protection to a protected class only extends to the point
that a statute of limitations allows although violations of the protection may persist.
In this instant, Petitioner challenges the fact that until this present day, Kentucky
has not followed the Supremacy Clause under the U.S. Constitution by its failure
to refuse youthful/juvenile offenders a meaningful opportunity to demonstrate
rehabilitation or maturity for release.
2. Does the Eighth Amendment prohibit a “de jure”/”de facto” LWOP
sentence under Montgomery, Miller, Graham when a state intentionally refuses
to grant a juvenile offender a “meaningful opportunity to obtain release based
on demonstrated maturity and rehabilitation
This Court need to answer a question of exceptional importance as to prove
once and for all that at no point has either the Kentucky Courts of Justice or the
parole board accepted Miller/Montgomery. See Phon v. Com., 545 S.W.3d 290-

Page 8 of 11

;

291, (K\,2018) (citing that it is not required to make any specific fact-finding
before imposing LWOP to juveniles). This is mutiny, unconscionable, and barbaric
deeming that it still refuses to consider the Miller/Montgomery factors despite
SCOTUS mandate under a statutory ruse of honoring the evolving standard of
decency.
Based upon the statutory construct of KRS 635.020(4), the Kentucky Courts
of Justice ARE mandated to consider a juvenile as an adult when certain criterion
is met without any thought to immaturity, impetuosity, and even incorrigibility
prior to levying the maximum sentence allowable (life). Hence, KRS 507.020;
KRS 532.030(1); 640.030(2) and 635.020(4) mandates that the juvenile meeting
these prongs is automatically subjected to sentencing as an adult if convicted under
the underlying charge. Furthermore, under the current parole board administrative
guidelines or those used in the appellant’s case, the board was and is not mandated
to consider the Miller factors prior to deferring a juvenile offender. Hence, the
makes his sentence a de facto life sentence without such Miller factor
consideration, and Brooks is eligible for a serve out due to Kentucky’s refusal to
conform to human decency. See Belcher, 917 S.W.2d 84 (K\.App,1996). Based on
the unchangeable factors that the board deferred Brooks in 2009, the appellant asks
this Court to explain where it can gather from the record that the board considered

Page 9 of 11

Miller factors, and if by chance it did not, how can ever show or be considered
rehabilitated if it never has to?
In boxing, it’s the age old adage of, “watch the left, watch the left..then
the guy hits you with a right. In Montgomery v. Louisiana, 136 S.Ct. at 742, it
stated:
“So for the five decades Montgomery has spent in prison, not one of this Court’s
precedents called into question the legality of his sentence—until the People’s
“standards of decency,” as perceived by five Justices, “evolved” yet again in
Miller.”

In Brooks v. Commonwealth, 2018 Ky.Avv. Unpub.LEXIS 269 at [*71 it states:
“In other words, the Board would be within its legal rights to deny Brooks
parole at his purported next hearing in 2021 and continue denying him parole
for the remainder of his natural life, despite any "meaningful changes” he
may or may not make. Brooks bargained for a life sentence and whether he
remains in prison for the rest of his life or is eventually given his freedom by
the Board will be purely at the Board's discretion.”

CONCLUSION
This evinces that Kentucky’s standard of decency has not evolved. As long
as KRS Chapter 439 does not conform to those Miller standards and of its
progenies allowing for youthful/juvenile offender a meaningful opportunity to
demonstrate maturation or rehabilitation for release, then no juvenile offender

Page 10 of 11

stands a chance when coming before a Kentucky Parole Board panel. Additionally,
as of late, no juvenile offender received the Miller benefit of a doubt allowing for a
meaningful opportunity for parole.
This would be in the same vein of prohibiting a protected class of citizen
(LGBTQ) the right to marry or procure same privileges as non-LGBTQ couples
when they fail to petition a court within a year contravening the continual and
absolute right established. See U.S. v. Windsor. 570 U.S. 744 (2013). Or, in
contravention of the 15th Amendment. a person whom did not immediately apply
for the right to vote within a year is precluded from doing so?

The Petition for writ of certiorari should be granted.

Respectfully Submitted,

Jason Brooks #138036
L.L.C.C.
P.O. Box 6
LaGrange, Kentucky 40031

titvre:

Page 11 of 11

